 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




QUALITY SOFTWARE SERVICES, INC.,
HAD NOT IMPLEMENTED UNIVERSAL
  SERIAL BUS DEVICE AND PORT
           CONTROLS

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                       Kay L. Daly
                                                Assistant Inspector General

                                                         June 2013
                                                       A-04-12-05045
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

 The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
 The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
 The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
 The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

Quality Software Services, Inc., did not sufficiently implement CMS-required information
system security controls over USB ports and devices, thus risking exposure of personally
identifiable information for over 6 million Medicare beneficiaries.



WHY WE DID THIS REVIEW

Universal Serial Bus devices (USB devices) have become common in the workplace. Many
individuals have several USB devices, such as jump drives and smart phones, for use with both
their personal and professional computers. Because USB devices connect directly into
computers and can store large amounts of data, they can potentially cause serious harm to
computers and networks or compromise sensitive data if their use is not properly controlled. In
an attempt to limit the risk to personally identifiable information (PII) for Medicare beneficiaries,
we assessed the USB device controls at Quality Software Services, Inc. (QSSI), the contractor
responsible for testing changes to the Centers for Medicare & Medicaid Services (CMS)
Medicare systems and the effect of those changes on beneficiary data.

The objective of our audit was to determine whether QSSI had sufficiently implemented Federal
requirements for information system security controls over USB ports and devices.

BACKGROUND

QSSI is a testing contractor for CMS that provides independent testing services for changes to
Medicare Part A and B “Fee-for-Service” standard systems. Its test systems maintain data on
over 6 million Medicare beneficiaries for testing purposes. QSSI provides related hardware,
software, and connectivity required to host test environments and test software changes to the
CMS Common Working File, Multi-Carrier System, Fiscal Intermediary Standard System, the
Healthcare Integrated General Ledger Accounting System, and the Viable Information
Processing System Medicare System.

WHAT WE FOUND

QSSI had not sufficiently implemented Federal requirements for information system security
controls over USB ports and devices. Specifically, QSSI had not: (1) listed essential system
services or ports in its system security plan or (2) disabled, prohibited, or restricted the use of
unauthorized USB device access. QSSI had not implemented USB security controls because
management had not updated its USB control policies and procedures. As a result of QSSI’s
insufficient controls over USB ports and devices, the PII of over 6 million Medicare
beneficiaries was at greater risk from malware, inappropriate access, or theft.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                     i
WHAT WE RECOMMEND

We recommend that QSSI update and implement sufficient policies and procedures to ensure
that USB controls comply with Federal requirements, including CMS Information Security
Acceptable Risk Safeguards. Specifically, QSSI should:

    •   list essential system services and ports in its system security plan;

    •   update its policies and procedures to prohibit the use of unauthorized USB devices on its
        systems that store or process Medicare information;

    •   limit USB port access to essential connections; and

    •   disable, prohibit, or restrict unauthorized USB device access.

QUALITY SOFTWARE SERVICES, INC., COMMENTS AND OUR RESPONSE

In its response to our draft report, QSSI described the corrective actions it had taken and planned
to take to address three of our four recommendations.

Specifically, QSSI:

    •   revised the corporate Network Access Control policy to establish usage restrictions and
        implementation guidance for mobile devices,

    •   plans to implement “Read only” restrictions for USB ports in all laptops and to disable
        the capability for automatic execution of code without user direction, and

    •   plans to require the scanning of all portable and mobile devices to detect malicious code.

However, QSSI did not address our first recommendation regarding its system security plan. We
reiterate that QSSI should update its system security plan to include lists of essential system
services and ports.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                 ii
                                                    TABLE OF CONTENTS

                                                                                                                          Page
INTRODUCTION...................................................................................................................1

           Why We Did This Review ..........................................................................................1

           Objective ......................................................................................................................1

           Background .................................................................................................................1
                 Federal Government Information Security Controls
                  and Requirements...........................................................................................1
                 Universal Serial Bus Devices............................................................................1
                 Quality Software Services, Incorporated ..........................................................2

           How We Conducted This Review ..............................................................................2

FINDING .................................................................................................................................3

           Universal Serial Bus Device Security Controls Not Sufficiently
             Implemented ...........................................................................................................3

RECOMMENDATIONS........................................................................................................4

QUALITY SOFTWARE SERVICES, INC., COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE .....................................................4

APPENDIXES

           A: Audit Scope and Methodology............................................................................. 6

           B: Risk Scale and Necessary Actions ....................................................................... 7

           C: Federal Requirements for Universal Serial Bus Controls ................................ 8

           D: Quality Software Services, Inc., Comments ....................................................... 10




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                                                              iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Universal Serial Bus devices (USB devices) have become common in the workplace. Many
individuals have several USB devices, such as jump drives and smart phones, for use with both
their personal and professional computers. Because USB devices connect directly into
computers and can store large amounts of data, they can potentially cause serious harm to
computers and networks or compromise sensitive data if their use is not properly controlled. In
an attempt to limit the risk to personally identifiable information (PII) for Medicare beneficiaries,
we assessed the USB device controls at Quality Software Services, Inc. (QSSI), the contractor
responsible for testing changes to the Centers for Medicare & Medicaid Services (CMS)
Medicare systems and the effect of those changes on beneficiary data.

OBJECTIVE

The objective of our audit was to determine whether QSSI had sufficiently implemented Federal
requirements for information system security controls over USB ports and devices.

BACKGROUND

Federal Government Information Security Controls and Requirements

The Federal Information Security Management Act of 2002 (FISMA) and the Office of
Management and Budget (OMB) required Federal agencies to comply with the National Institute
of Standards and Technology (NIST) standards and guidelines to improve the efficiency and
security for Federal information systems. In response to FISMA, NIST published the Federal
Information Processing Standard 200 (FIPS 200), which designates NIST Special Publication
(SP) 800-53, Recommended Security Controls for Federal Information Systems and
Organizations, as amended, to meet FISMA requirements.

To comply with FISMA, CMS incorporated NIST SP 800-53 into its CMS Information Security
Acceptable Risk Safeguards (Risk Safeguards). CMS requires that all of its FISMA-governed
systems, including those managed by its contractors, follow these Risk Safeguards.

Universal Serial Bus Devices

USB devices include portable data storage devices, commonly known as jump, flash, or thumb
drives, and other devices that can store data and connect to systems through USB ports (e.g.,
external hard drives, iPods, and smart phones). Despite being small and highly portable, USB
devices can store and transport large amounts of data, thus creating a vulnerability to computer
systems and sensitive data, including proprietary information and PII.

An example of how USB devices can infect computer networks with malicious software
(malware) occurred in 2008 when an individual inserted an infected USB device into a military
computer. The USB device transmitted malware into the computer, and the malware spread



Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                  1
undetected to other government computer networks. Deputy Defense Secretary William Lynn
described that incident as the “most significant breach of U.S. military computers ever.” Since
then, other publicized incidents of USB device malware transmission included the 2010
“Stuxnet” infection of Iran’s nuclear facilities and the “Gauss” malware, which was used to steal
information from the banking industry.

An example of how USB devices can contribute to the loss of PII occurred in 2011 when a
University of Texas trainee lost an unencrypted USB device on the employee shuttle bus. The
unencrypted USB device potentially exposed medical records containing the PII of 2,200
patients. In another recent incident in July 2012, a home burglar in Oregon stole a hospital
employee’s thumb drive containing data on over 14,000 patients. In many of these cases, it is
difficult to determine whether or when anyone will use the breached data in a crime.

Quality Software Services, Incorporated

QSSI is a testing contractor for CMS that provides independent testing services 1 for changes to
Medicare Part A and B “Fee-for-Service” 2 standard systems. Its test systems maintain data on
over 6 million Medicare beneficiaries for testing purposes. 3 QSSI provides related hardware,
software, and connectivity required to host and test software changes to the CMS Common
Working File, Multi-Carrier System, Fiscal Intermediary Standard System, the Healthcare
Integrated General Ledger Accounting System, and the ViPS Medicare System. 4

HOW WE CONDUCTED THIS REVIEW

We limited our review to the controls and workstation configurations QSSI established over
USB ports and devices. We assessed how QSSI set up its USB ports for 30 judgmentally
selected workstations at QSSI’s office in Columbia, South Carolina. In addition, we reviewed
QSSI’s policies for users to follow.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




1
 QSSI performs systems, functional, integration, volume regression, and production-ready testing on changes to
Medicare standard systems for CMS.

2
    Fee-for-Service is a separate payment to a health-care provider for each medical service rendered to a patient.
3
  QSSI’s test environment contains all the information necessary to process a Medicare transaction. As of October
9, 2012, this information included 6,667,459 unique Medicare beneficiary records.
4
    Viable Information Processing System Medicare System.



Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                                     2
Appendix A contains the details of our audit scope and methodology. Appendix B contains a
description of risk levels and the resulting necessary actions.

                                                FINDING

QSSI had not sufficiently implemented Federal requirements for information system security
controls over USB ports and devices. Specifically, QSSI had not:

    •   listed essential system services or ports in its system security plan; or

    •   disabled, prohibited, or restricted the use of unauthorized USB device access.

QSSI had not implemented USB security controls because its management had not updated its
USB control policies and procedures. As a result of QSSI’s insufficient controls over USB ports
and devices, the PII of over 6 million Medicare beneficiaries was at greater risk from malware,
inappropriate access, or theft.

UNIVERSAL SERIAL BUS DEVICE SECURITY CONTROLS NOT SUFFICIENTLY
IMPLEMENTED

CMS’s Risk Safeguards require that business owners, including contractors, include essential
USB ports in their system security plans and set up their workstations to restrict the use of
unnecessary USB ports. The Risk Safeguards further require that business owners prohibit the
use of unauthorized USB devices in CMS information systems. (For details on the Federal
requirements related to controls over USB ports and devices, see Appendix C.)

Although QSSI advised its users against using personal devices on work computers and warned
them not to connect USB devices from unknown sources into work computers as part of its
Security Awareness training, QSSI had not sufficiently implemented Federal requirements for
information system security controls over USB ports and devices. Specifically, QSSI had not:

    •   listed essential system services or ports in its system security plan; or

    •   disabled, prohibited, or restricted the use of unauthorized USB device access.

QSSI had not implemented USB security controls because its management had not updated its
USB control policies and procedures. QSSI officials maintained that the security guidelines
covered during Security Awareness training were not part of QSSI’s policies and that QSSI had
not required employees to follow those guidelines.

We assigned a risk ranking of “high” to this finding based on the criteria listed in the NIST SP
800-30. (For details on risk ranking criteria, see Appendix B.) Because of insufficient controls
prohibiting the use of unauthorized USB device access, QSSI employees had connected a wide
variety of personal USB devices to the 30 tested workstations. For example, someone had
connected 28 different USB mass storage devices to one workstation, but QSSI was not able to
determine whether the 28 devices were authorized. Twenty-nine of the thirty workstations


Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                  3
showed evidence that additional devices had been connected to USB ports, including
camcorders, tablets, iPods, eBooks, navigation devices, and smart phones. The uncontrolled
USB port access increased the possibility that anyone with physical access to a USB port could
have introduced malware to CMS test systems or inappropriately accessed Medicare beneficiary
PII, thus putting the PII of over 6 million Medicare beneficiaries at greater risk from malware,
inappropriate access, or theft.

                                       RECOMMENDATIONS

We recommend that QSSI update and implement sufficient policies and procedures to ensure
that USB controls comply with Federal requirements, including CMS’s Risk Safeguards.
Specifically, QSSI should:

    •   list essential system services and ports in its system security plan;

    •   update its policies and procedures to prohibit the use of unauthorized USB devices on its
        systems that store or process Medicare information;

    •   limit USB port access to essential connections; and

    •   disable, prohibit, or restrict unauthorized USB device access.

        QUALITY SOFTWARE SERVICES, INC., COMMENTS AND OFFICE OF
                     INSPECTOR GENERAL RESPONSE

In its response to our draft report, QSSI described the corrective actions it had taken and planned
to take to address three of our four recommendations.

Specifically, QSSI:

    •   revised the corporate Network Access Control policy to establish usage restrictions and
        implementation guidance for mobile devices,

    •   plans to implement “Read only” restrictions for USB ports in all laptops and to disable
        the capability to automatically run applications without user direction, and

    •   plans to require the scanning of all portable and mobile devices to detect malicious code.

However, QSSI did not address our first recommendation regarding its system security plan. We
reiterate that, to comply with Federal regulations, QSSI should update its system security plan to
include lists of essential system services and ports.

We included QSSI’s comments in their entirety as Appendix D. However, we redacted the
names in the “To” field of the email QSSI used for communicating its comments to our report
because it contained the names of auditors and program officials not employed by QSSI. We



Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                   4
also redacted the name of the software QSSI stated it plans to use on its portable and mobile
devices to detect malicious code and computer viruses.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)               5
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We limited our review to the controls over QSSI’s USB ports and devices and did not evaluate
its internal controls as a whole.

Specifically, we determined whether QSSI had policies governing USB device usage on QSSI
systems and what logical controls QSSI had over USB port functionality on individual
workstations. We also evaluated the number and type of USB devices connected to QSSI
workstations at one QSSI office.

We performed our fieldwork at QSSI’s facility located in Columbia, South Carolina, during May
2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   assessed QSSI policies for control over USB devices;

    •   interviewed QSSI staff about USB device controls and information system
        configurations; and

    •   judgmentally selected 30 workstations with access to the QSSI network to assess their
        USB port configurations and determine all previous USB devices connected to those
        workstations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)               6
                 APPENDIX B: RISK SCALE AND NECESSARY ACTIONS

RISK RANKING CRITERIA

We have assigned risk ranking to our finding based on the criteria listed in the NIST SP 800-30,
dated July 2002, Table 3-7, entitled Risk Scale and Necessary Actions (below). To assign the
risk ranking, we considered the Likelihood Level (Table 3-4) and Magnitude of Impact (Table 3-
5), both also in SP 800-30. We limited our assessment of Magnitude of Impact to the risks
associated with QSSI’s Medicare testing program and, specifically, with the confidentiality of
Medicare beneficiary data. The risk scale shown below represents the degree or level of risk to
which an IT system can be exposed if a vulnerability is exploited.

                            Table 3-7. Risk Scale and Necessary Actions

 Risk Level          Risk Description and Necessary Actions

 High                If an observation or finding is evaluated as a high risk, there is a strong need
                     for corrective measures. An existing system may continue to operate, but a
                     corrective action plan must be put in place as soon as possible.

 Medium              If an observation is rated as medium risk, corrective actions are needed and
                     a plan must be developed to incorporate these actions within a reasonable
                     period of time.

 Low                 If an observation is described as low risk, the system’s Designated
                     Approving Authority must determine whether corrective actions are still
                     required or decide to accept the risk.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)                       7
     APPENDIX C: FEDERAL REQUIREMENTS FOR UNIVERSAL SERIAL BUS
                             CONTROLS

FISMA and OMB required Federal agencies to comply with NIST standards and guidelines to
improve the efficiency and security for Federal information systems. In response to FISMA,
NIST published FIPS 200, which designates NIST SP 800-53, Recommended Security Controls
for Federal Information Systems and Organizations, as amended, to meet FISMA requirements.

To comply with FISMA, CMS incorporated NIST SP 800-53 into its Risk Safeguards.

The CMS Risk Safeguards (Rev.1, 05-24-11) Scope states:

        All CMS employees, contractors, sub-contractors, and their respective facilities
        supporting CMS business missions and performing work on behalf of CMS shall
        observe the baseline policy statements described in the … [Policy for the
        Information Security Program] and the complementary controls defined in the …
        [Risk Safeguards] as the minimum security requirements for all CMS information
        and information systems.

CMS Risk Safeguards, Rev.1, 05-24-11, Appendix B: CMS Minimum Security Requirements for
Moderate Impact Level Data, Section 5.0, Configuration Management (CM) –
Operational - CM-7 – Least Functionality (Moderate) Control states:

        The organization configures the information system to provide only essential
        capabilities and specifically disables, prohibits, or restricts the use of system
        services, ports, network protocols, and capabilities that are not explicitly required
        for system or application functionality. A list of specifically needed system
        services, ports, and network protocols will be maintained and documented in the
        … [system security plan]; all others will be disabled.

CMS Risk Safeguards, Rev.1, 05-24-11, Appendix B: CMS Minimum Security Requirements for
Moderate Impact Level Data, Section 1.0, Access Control (AC) – Technical - AC-19 – Access
Control for Mobile Devices (Moderate) Controls states:

        The organization prohibits the connection of portable and mobile devices (e.g.,
        notebook computers, personal digital assistants, cellular telephones, and other
        computing and communications devices with network connectivity and the
        capability of periodically operating in different physical locations) to CMS
        information systems unless explicitly authorized, in writing, by the CIO or his/her
        designated representative.

        AC-19 (1) – Enhancement (Moderate)

        The organization restricts the use of writable, removable media in CMS
        information systems.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)               8
        AC-19 (2) – Enhancement (Moderate)

        The organization prohibits the use of personally owned, removable media in CMS
        information systems.

        AC-19 (3) – Enhancement (Moderate)

        The organization prohibits the use of removable media in CMS information
        systems when the media has no identifiable owner.




Quality Software Services, Inc., Had Not Implemented USB Controls (A-04-12-05045)        9
Appendix D: QUALITY SOFTWARE SERVICES, INCORPORATED COMMENTS



  From:


  I
  Subject:         RE : A-04- 12-05045 written comments not received
  Date:            Friday, January 11, 2013 1:43 :45 PM




  Beverly, 


  Thank you for the follow-up. Please see below ou r comment to the finding: 


  QSSI has revised the corporate Network Access Control policy to establish usage restrictions and
  implementation guidance for mobile devices. Accordingly, QSSI plans to implement a group policy that
  enforces "Read' on ly access right for USB ports in al l STC laptops and disables the capability for
  automatic execution of code without user direction; all portable and mobile devices must be scanned
  using                     software to detect mali·cious code and computer virus.

  Please let me know shou ld you have any questions.

  Thank you!

  Anh Tran
